      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201



March 2, 2010

TO:             Charlene Frizzera
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Daniel R. Levinson/
                Inspector General


SUBJECT:        Review of California’s Department of Health Care Services Fiscal Year 2007
                Payment Error Rate Measurement Universes (A-06-08-00050)


The attached final report provides the results of our review of California’s Department of Health
Care Services (DHCS) fiscal year (FY) 2007 Payment Error Rate Measurement (PERM)
universes, as required by the Improper Payments Information Act of 2002 (IPIA),
P.L. No. 107-300. The Centers for Medicare & Medicaid Services (CMS) developed the PERM
program (1) to comply with the IPIA and Office of Management and Budget (OMB)
requirements for measuring improper Medicaid program and State Children’s Health Insurance
Program (SCHIP) payments made in Medicaid’s fee-for-service (FFS) component in FY 2006
and (2) to measure improper payments made in the FFS, managed care, and eligibility
components of Medicaid and SCHIP in FY 2007 and future years. OMB requires CMS to
include the PERM results in its annual accountability report.

States are required to submit quarterly a list of beneficiary-specific claims (universe) to the
statistical contractor. Each State should submit a maximum of four universes per quarter, one for
each program area the State operates. From each of the quarterly universes, the statistical
contractor selects a sample for review.

Our objectives were to determine (1) whether DHCS’s PERM managed care and FFS universes
were complete and accurate and could be reconciled to the Federal reimbursement reported on
the Forms CMS-64 and CMS-21 and (2) the extent to which CMS staff reconciled the Forms
CMS-64 and CMS-21 to detailed claim information.

DHCS was unable to reconcile the PERM universes to the quarterly Forms CMS-64 and
CMS-21. We could not determine whether DHCS’s managed care and FFS universes were
complete and accurate. We were unable to reconcile the managed care and FFS universes to the
Forms CMS-64 and CMS-21.

CMS Regional Office officials stated that they had performed a reconciliation of the Forms
CMS-64 and CMS-21 to the accounting records that DHCS used to support the Forms CMS-64
Page 2 – Charlene Frizzera


and CMS-21. However, those accounting records did not include the detailed claim information.
DHCS officials stated that they could not reconcile the Forms CMS-64 and CMS-21 to the
managed care or FFS universes, and the California State Auditor found that the Form CMS-64
was not traceable to individual claims.

We recommend that CMS:

      instruct DHCS to reconcile its PERM universes to the Forms CMS-64 and CMS-21 it
       submits to CMS and ensure that its universes are complete and accurate,

      instruct DHCS to implement a payment system that produces information that is readily
       available, and

      include steps in the California Financial Management Review to annually reconcile
       various expenditures on the Forms CMS-64 and CMS-21 to detailed claim information.

In its comments on our draft report, CMS did not agree to implement our first two
recommendations and did not specifically address our third recommendation. CMS stated that
reconciling the Forms CMS-64 and CMS-21 to the PERM universes is problematic because of
timing and offered alternatives to a complete reconciliation. CMS agreed that a new payment
system for DHCS is necessary but said implementation was dependent on the availability of
State budget resources to support the change. CMS did not specifically address our
recommendation to include steps in the Financial Management Review to annually reconcile
various expenditures on the Forms CMS-64 and CMS-21 to detailed claim information.

Without reconciling the PERM universe to the Forms CMS-64 and CMS-21, CMS is unable to
show that it has complied with the requirements of OMB Circular A-123, Appendix C, to
produce a statistically valid estimate of improper payments. While we recognize that California
budgetary resources are at a premium, it is essential to the integrity of the Medicaid program that
the Forms CMS-64 and CMS-21 be readily traceable to detailed claims information. The
reconciliation of the Forms CMS-64 and CMS-21 to detailed claim information must be part of
the Financial Management Review to help ensure States are submitting valid claims.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact Joseph J. Green, Assistant Inspector General for Financial
Management and Regional Operations, at (202) 619-1157 or through email at
Joe.Green@oig.hhs.gov. Please refer to report number A-06-08-00050 in all correspondence.


Attachment
   Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL




REVIEW OF CALIFORNIA’S DEPARTMENT
 OF HEALTH CARE SERVICES FISCAL
  YEAR 2007 PAYMENT ERROR RATE
     MEASUREMENT UNIVERSES




                         Daniel R. Levinson
                          Inspector General

                            March 2010
                           A-06-08-00050
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Improper Payments Information Act of 2002 (IPIA) requires the head of a Federal agency
with any program or activity that may be susceptible to significant improper payments to report
to Congress the agency’s estimates of the improper payments. In addition, for any program or
activity with estimated improper payments exceeding $10 million, the agency must report to
Congress the actions that the agency is taking to reduce those payments. Section 2(f) of the IPIA
requires the Director of the Office of Management and Budget (OMB) to prescribe guidance on
implementing IPIA requirements.

The Centers for Medicare & Medicaid Services (CMS) developed the Payment Error Rate
Measurement (PERM) program to comply with IPIA and OMB requirements for measuring
improper Medicaid program and State Children’s Health Insurance Program (SCHIP, now
known as CHIP) payments. CMS intended for the PERM program to measure improper
payments made in Medicaid’s fee-for-service (FFS) component in fiscal year (FY) 2006 and to
measure improper payments made in the FFS, managed care, and eligibility components of
Medicaid and SCHIP in FY 2007 and future years.

States are required to submit quarterly a list of beneficiary-specific claims (universe) to the
statistical contractor. Each State should submit a maximum of four universes per quarter, one for
each program area the State operates. From each of the quarterly universes, the statistical
contractor selects a sample for review.

California’s Department of Health Care Services (DHCS) FFS system processes and pays claims
at the individual claim level. Managed care payments are lump-sum payments to the managed
care plans. These payments are based on groupings of the managed care enrollees identified in
DHCS’s eligibility system. DHCS multiplies the members in each cohort by their capitation rate
to determine the total amount paid to the managed care plan.

Because DHCS does not create or record beneficiary-specific managed care payment records in
its payment system, the statistical contractor needed an alternate approach to review DHCS’s
managed care payments for the PERM program. As a result, DHCS officials created a pseudo
universe by creating a payment record for each managed care beneficiary member-month based
on the beneficiary’s rate category. This universe was not based on the actual payments that were
processed through the State’s claims-processing system.

Amounts reported on the “Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program” (Form CMS-64) and the “Quarterly State Children’s Health Insurance
Program Statement of Expenditures for Title XXI” (Form CMS-21) must be actual expenditures.
The information for Forms CMS-64 and CMS-21 expenditures is obtained from sources such as
invoices, cost reports, and eligibility records. When claims are developed through the use of
estimating techniques, they are considered estimates and are not to be reported on Forms
CMS-64 and CMS-21.




                                                i
The CMS Regional Office conducts quarterly reviews of the Forms CMS-64 and CMS-21.
During these reviews, CMS Regional Office staff reconcile the amounts reported to the
accounting records the State used to support the Forms CMS-64 and CMS-21. Additional
procedures are performed in accordance with the requirements of the CMS review guides. The
California State Auditor also conducts reviews of the Form CMS-64.

OBJECTIVES

Our objectives were to determine:

    whether DHCS’s PERM managed care and FFS universes were complete and accurate
     and could be reconciled to the Federal reimbursement reported on the Forms CMS-64 and
     CMS-21 and

    the extent to which CMS staff reconciled the Forms CMS-64 and CMS-21 to detailed
     claim information.

SUMMARY OF FINDING

DHCS was unable to reconcile the PERM universes to the quarterly Forms CMS-64 and
CMS-21. We could not determine whether DHCS’s managed care and FFS universes were
complete and accurate. We were unable to reconcile the managed care and FFS universes to the
Forms CMS-64 and CMS-21.

CMS Regional Office officials stated that they performed a reconciliation of the Forms CMS-64
and CMS-21 to the accounting records that DHCS used to support the Forms CMS-64 and
CMS-21. However, those accounting records did not include the detailed claim information.
DHCS officials stated that they could not reconcile the Forms CMS-64 and CMS-21 to the
managed care or FFS universes, and the California State Auditor found that the Form CMS-64
was not traceable to individual claims.

RECOMMENDATIONS

We recommend that CMS:

    instruct DHCS to reconcile its PERM universes to the Forms CMS-64 and CMS-21 it
     submits to CMS and ensure that its universes are complete and accurate,

    instruct DHCS to implement a payment system that produces information that is readily
     available, and

    include steps in the California Financial Management Review to annually reconcile
     various expenditures on the Forms CMS-64 and CMS-21 to detailed claim information.




                                              ii
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

CMS did not agree to implement our first two recommendations. CMS did not specifically
address our third recommendation.

Regarding our first recommendation, CMS said that “obtaining the final expenditure data in time
to complete all reviews and calculations before the November 15 error rate reporting due date is
problematic” and offered alternatives to a complete reconciliation of the PERM sampling
universe to the Medicaid and SCHIP claims data (CMS-64 and CMS-21). CMS agreed in
principle with our second recommendation but said implementation was dependent on the
availability of State budget resources to support the change. CMS did not specifically address
our recommendation to include steps in the Financial Management Review to annually reconcile
various expenditures on the Forms CMS-64 and CMS-21 to detailed claim information.

CMS’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Without reconciling the PERM universes to the Forms CMS-64 and CMS-21, CMS is unable to
show that it has complied with the requirements of OMB Circular A-123, Appendix C, for “a
statistically valid estimate of the annual amount of improper payments . . . .” The results
obtained from statistical sampling of the PERM universe are applicable only to the universe from
which the sample was drawn. Therefore, if the PERM universe differs from the States’ actual
Medicaid and SCHIP claims included on the Forms CMS-64 and CMS-21, States are
determining the error rate in the PERM universe, not necessarily the error rate in the Medicaid
and SCHIP programs.

We recognize that State budgetary resources are at a premium. However, it is essential to the
integrity of the Medicaid and SCHIP programs that the Forms CMS-64 and CMS-21 be readily
traceable to detailed claims information.

The reconciliation of Forms CMS-64 and CMS-21 to detailed claim information must be part of
the Financial Management Review to help ensure California is submitting valid claims.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

        BACKGROUND................................................................................................................1
            Improper Payments Information Act of 2002.........................................................1
            Improper Payments Information Act of 2002 Implementation Guidance ..............1
            Payment Error Rate Measurement Program ...........................................................1
            California Department of Health Services’ Managed Care System .......................2
            California Department of Health Services’ Fee-for-Service System......................2
            Forms CMS-64 and CMS-21 Reporting Requirements..........................................2
            Centers for Medicare & Medicaid Services Oversight...........................................3
            California State Auditor..........................................................................................3

        OBJECTIVES, SCOPE, AND METHODOLOGY ...........................................................3
             Objectives ...............................................................................................................3
             Scope.......................................................................................................................3
             Methodology...........................................................................................................4

FINDING AND RECOMMENDATIONS...............................................................................4

        POTENTIALLY INACCURATE AND INCOMPLETE STATE UNIVERSES .............5
             Managed Care Universes ........................................................................................5
             Fee-for-Service Universes ......................................................................................6
             Centers for Medicare & Medicaid Services Oversight...........................................7
             California State Audit Reports................................................................................7

        RECOMMENDATIONS ...................................................................................................7

        CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
        AND OFFICE OF INSPECTOR GENERAL RESPONSE ...............................................8
             Reconciling Payment Error Rate Measurement Universes to
               Forms CMS-64 and CMS-21 ..............................................................................8
             Implementing a System That Produces Readily Available Information ................8
             Reconciling Expenditures on the Forms CMS-64 and CMS-21 Periodically ........9

APPENDIX

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                     iv
                                             INTRODUCTION

BACKGROUND

Improper Payments Information Act of 2002

The Improper Payments Information Act of 2002 (IPIA), P.L. No. 107-300, requires the head of
a Federal agency with any program or activity that may be susceptible to significant improper
payments to report to Congress the agency’s estimates of the improper payments. In addition,
for any program activity with estimated improper payments exceeding $10 million, the agency
must report to Congress the actions that the agency is taking to reduce those payments. Pursuant
to section 2(f) of the IPIA, the Director of the Office of Management and Budget (OMB) must
prescribe guidance on implementing IPIA requirements.

Improper Payments Information Act of 2002 Implementation Guidance

Unless a written waiver is obtained from OMB, OMB Circular A-123, Appendix C, requires an
agency to:

        Review all programs and activities and identify those which are susceptible to
        significant erroneous payments. . . . Obtain a statistically valid estimate of the
        annual amount of improper payments in programs and activities. . . . Implement a
        plan to reduce erroneous payments. . . . [and] Report estimates of the annual
        amount of improper payments in programs and activities and progress in reducing
        them.

OMB identified the Medicaid program and the State Children’s Health Insurance Program
(SCHIP) 1 as programs at risk for significant erroneous payments. OMB requires the Department
of Health and Human Services (HHS) to report the estimated amount of improper payments for
each program annually in its accountability report. For example, the amount of fiscal year (FY)
2007 improper payments was reported in the HHS “FY 2008 Agency Financial Report,” dated
November 17, 2008.

Payment Error Rate Measurement Program

The Centers for Medicare & Medicaid Services (CMS) developed the Payment Error Rate
Measurement (PERM) program to comply with IPIA and OMB requirements for measuring
improper Medicaid and SCHIP payments. CMS intended for the PERM program to measure
improper payments made in Medicaid’s fee-for-service (FFS) component in FY 2006 and to
measure improper payments made in the FFS, managed care, and eligibility components of
Medicaid and SCHIP in FY 2007 and future years.



1
 As a result of the Children’s Health Insurance Program Reauthorization Act of 2009, P.L. No. 111-3, this program
is now referred to as the Children’s Health Insurance Program. Because our findings relate to FY 2007, we use
“SCHIP” throughout the report.


                                                        1
States are required to submit quarterly a list of beneficiary-specific claims (universe) to the
statistical contractor. Each State should submit a maximum of four universes per quarter, one for
each program area the State operates. The statistical contractor selects a sample for review from
each of the quarterly universes.

California Department of Health Services’ Managed Care System

The California Department of Health Care Services (DHCS) does not create or record
beneficiary-specific managed care payment records in its payment system. Instead, all plan
payments are made through a process that begins with a summarized managed care plan
enrollment report from California’s eligibility system. DHCS manually transfers the report into
plan-specific spreadsheets containing capitation rates that are based on groupings of individuals
called cohorts. DHCS then multiplies the members in each cohort by the applicable capitation
rate and calculates the total payment due. Because DHCS does not create or record beneficiary-
specific managed care payment records in its payment system, the statistical contractor needed
an alternate approach to review DHCS’s managed care payments for the PERM program. As a
result, DHCS officials created pseudo universes using the following method:

      accessing monthly copies of the Medicaid and SCHIP eligibility system, archived on the
       15th of each month;

      identifying who on that date each month was recorded in the eligibility system as enrolled
       in a health maintenance organization (HMO) and what his or her rate category was; and

    creating a pseudo payment record for each HMO member-month with the data fields
     required for the PERM managed care universes.

California Department of Health Services’ Fee-for-Service System

The DHCS FFS payment system processes and pays claims at the individual claim level. DHCS
developed its FFS universe by querying the payment system for claims that met the PERM
requirements. After DHCS compiled the paid claims, it had to add claims to the universe, such
as denied claims and claims under $0.50, because these claims were not in the payment system
but were required to be part of the PERM universe. DHCS accumulates paid claims records
from all payment sources in its paid claims system. The contractor that processes claims for
DHCS provided the additional claims.

Forms CMS-64 and CMS-21 Reporting Requirements

The CMS “State Medicaid Manual,” chapter 2, section 2500, says that the amounts reported on
the “Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program” (Form
CMS-64) must be actual expenditures for which all supporting documentation must be in readily
reviewable form. The information for Form CMS-64 expenditures is obtained from sources such
as invoices, cost reports, and eligibility records. When claims are developed through the use of
estimating techniques, they are considered estimates and are not to be reported on a Form
CMS-64.


                                                2
CMS guidance on the “Quarterly State Children’s Health Insurance Program Statement of
Expenditures for Title XXI” (Form CMS-21) states the same requirements.

Centers for Medicare & Medicaid Services Oversight

The CMS Regional Office conducts quarterly reviews of the Forms CMS-64 and CMS-21.
During these reviews, CMS Regional Office staff reconciles the amounts reported on the Forms
CMS-64 and CMS-21 to the accounting records the State used to support the Forms CMS-64 and
CMS-21. Additional procedures are performed in accordance with the requirements of the
appropriate CMS review guide. The CMS Regional Office staff follows the CMS “Financial
Review Guide for the Quarterly Medicaid Statement of Expenditures” to conduct the Form
CMS-64 review and the “Financial Review Guide for the Quarterly State Children’s Health
Insurance Program Statement of Expenditures for Title XXI” to conduct the Form CMS-21
review. In this report, we will refer to these documents as the “CMS review guides.”

If CMS identifies an area during the quarterly reviews as a risk area, it performs a Financial
Management Review. These reviews are focused reviews and cover the identified risk areas.
CMS develops a review guide for each risk area that is approved for review.

California State Auditor

The Bureau of State Audits reviewed and reported on California’s internal controls and
compliance with California and Federal laws and regulations. DHCS is included in this review.
For the years ended June 30, 2006 and 2007, the California State Auditor determined that the
Form CMS-64 was not traceable to individual claims and recommended that DHCS implement
an audit trail so funding sources for individual claims can be identified.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine:

    whether DHCS’s PERM managed care and FFS universes were complete and accurate
     and could be reconciled to the Federal reimbursement reported on the Forms CMS-64 and
     CMS-21 and

    the extent to which CMS staff reconciled the Forms CMS-64 and CMS-21 to detailed
     claim information.

Scope

We reviewed the first and fourth quarters of FY 2007 PERM universes submitted by DHCS to
the statistical contractor.




                                                3
We did not review the statistical contractor’s overall internal control structure because the audit
objectives did not require it.

We performed fieldwork at the statistical contractor in Falls Church, Virginia, and DHCS in
Sacramento, California, from April through June 2008.

Methodology

To accomplish our objectives, we:

      met with officials at the CMS Central Office, the statistical contractor, and DHCS to
       understand how DHCS compiled the pseudo managed care universes and the FFS
       universes;

      met with DHCS officials to obtain an understanding of the PERM process at the State
       level;

      judgmentally selected the first and fourth quarters of DHCS’s FY 2007 pseudo managed
       care and FFS universes and reviewed them at DHCS;

      attempted to reconcile DHCS’s Forms CMS-64 and CMS-21 to DHCS’s pseudo
       managed care and FFS universes for the first and fourth quarters of FY 2007;

      met with CMS Regional Office officials to obtain an understanding of CMS’s oversight
       performed on the Forms CMS-64 and CMS-21; and

      reviewed the California State Auditor reports for 2006 and 2007 for conditions related to
       the Forms CMS-64 and CMS-21.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.

                           FINDING AND RECOMMENDATIONS

DHCS was unable to reconcile the PERM universes to the quarterly Forms CMS-64 and
CMS-21. Without such a reconciliation, we could not determine whether DHCS’s pseudo
managed care and FFS universes were complete and accurate. We were unable to reconcile the
PERM pseudo managed care and FFS universes to the Forms CMS-64 and CMS-21.

CMS Regional Office officials stated that they performed a reconciliation of the Forms CMS-64
and CMS-21 to the accounting records that DHCS used to support the Forms CMS-64 and
CMS-21 in accordance with the CMS review guides. However, those accounting records did not
include the detailed claim information. DHCS officials stated that they could not reconcile the


                                                 4
Forms CMS-64 and CMS-21 to the PERM pseudo managed care or FFS universes, and the
California State Auditor found that the Form CMS-64 was not traceable to individual claims.

POTENTIALLY INACCURATE AND INCOMPLETE STATE UNIVERSES

Managed Care Universes

The statistical contractor selected samples of beneficiary-level enrolled months from the PERM
pseudo managed care universes that may not have been complete and accurate. The PERM
program does not require the statistical contractor or the States to reconcile the State universes of
claims to any financial reports. Likewise, the statistical contractor’s quality assurance
procedures do not require reconciling the State universes to financial reports. Therefore, CMS
has no assurance that the DHCS’s universes are complete and accurate.

We also attempted to reconcile DHCS’s pseudo managed care universes of FY 2007 first and
fourth quarter claims to DHCS’s Forms CMS-64 and CMS-21 but were unable to do so.
Although we discussed our attempted reconciliation with DHCS officials and they provided
additional information, we still were unable to reconcile DHCS’s Forms CMS-64 and CMS-21
data to the universes. The differences we identified during the reconciliation process are shown
in Table 1.

                    Table 1: Managed Care Amounts Reported for the
        Payment Error Rate Measurement and on the Forms CMS-64 and CMS-21 for
                               Federal Fiscal Year 2007

                                                                      SCHIP                  SCHIP
                         Medicaid               Medicaid           Managed Care           Managed Care
                       Managed Care          Managed Care           Expansion 2            Expansion2
                        1st Quarter           4th Quarter           1st Quarter            4th Quarter
    PERM               $1,448,771,326        $1,420,127,478         $18,931,146            $22,382,705
    Forms CMS-
    64 and
    CMS-21             $1,313,701,427        $1,506,585,807          $24,808,695            $32,421,040
    Difference          $135,069,899            ($86,458,329)        ($5,877,549)          ($10,038,335)
    Difference as
    a percentage
    of amount on
    the Forms
    CMS-64 and
    CMS-21                  10.3%                  (5.7%)              (23.7%)                (31.0%)



2
 When developing its SCHIP program, each State has the option of making SCHIP part of an expanded Medicaid
program, a separate program, or a combination of both. California chose a combined approach in which it expanded
its Medicaid program and contracted with a third party to manage part of SCHIP. This report addresses only
DHCS’s portion of SCHIP.


                                                       5
We discussed the pseudo managed care universes with DHCS officials to determine whether
there was an alternate approach to verify the completeness and accuracy of the pseudo managed
care universes. For various reasons, alternative approaches were not practical. According to a
DHCS official, attempting to look at every California beneficiary enrolled in a managed care
program would require reviewing more than 8 million records. Additionally, DHCS pays the
monthly capitation payments to the managed care plans in a lump-sum payment. There is no
documentation attached to this payment that identifies the beneficiaries that the payment covers,
and DHCS relies on the plans to inform DHCS if the payments are incorrect.

Because we were unable to reconcile the PERM pseudo managed care universes to the Forms
CMS-64 and CMS-21, we were not able to determine whether DHCS’s pseudo managed care
universes were complete and accurate.

Fee-for-Service Universes

The statistical contractor selected FFS samples of adjudicated claims from DHCS universes that
may not have been complete and accurate. We attempted to verify the completeness and
accuracy of DHCS’s FFS universes of FY 2007 first and fourth quarter claims by reconciling
them to the DHCS’s Forms CMS-64 and CMS-21 but were unable to do so. Although we
discussed our reconciliation with DHCS officials and they provided additional information, we
still were unable to reconcile DHCS’s Forms CMS-64 and CMS-21 data to its PERM FFS
universes. The differences we identified during the reconciliation process are shown in Table 2.

                 Table 2: Fee-for-Service Amounts Reported for the
      Payment Error Rate Measurement and on the Forms CMS-64 and CMS-21 for
                              Federal Fiscal Year 2007

                  Medicaid FFS        Medicaid FFS         SCHIP FFS            SCHIP FFS
                   1st Quarter         4th Quarter          1st Quarter         4th Quarter
 PERM            $5,933,702,920       $6,161,779,411       $146,683,983         $145,894,937
 Forms
 CMS-64
 and
 CMS-21          $4,954,541,697       $5,608,528,863       $112,386,994         $121,486,956
 Difference        $979,161,223         $553,250,548        $34,296,989          $24,407,981
 Difference
 as a
 percentage
 of amount
 on the
 Forms
 CMS-64
 and
 CMS-21               19.8%                9.9%                30.5%               20.1%




                                                6
The statistical contractor provided instructions to the States regarding which payments to include
in their State universes. According to a CMS-approved letter from the statistical contractor to
State health officials containing claims data submission instructions for the FY 2007 PERM, the
PERM universe consisted of all adjudicated FFS Medicaid and SCHIP claims that were
originally paid or denied payment from October 1, 2006, through September 30, 2007, and that
involved Federal financial participation. Thus the PERM universe should have included all
Medicaid and SCHIP FFS payments, including those processed outside of the States’ payment
systems. The PERM universe also should have included claims for which the States had no
additional liability to pay, for example, a claim for which a third party was liable or a Medicare
payment that exceeded the States’ allowable charges. Because we were not able to reconcile
DHCS’s PERM FFS universes to the Forms CMS-64 and CMS-21, we could not determine
whether all required claims were included in the universes.

Centers for Medicare & Medicaid Services Oversight

CMS officials informed us that their review of the Forms CMS-64 and CMS-21 is done in
accordance with the CMS review guides. According to a CMS official, CMS can expand or
curtail its testing and review procedures depending on the complexity of a State’s program and
issues identified during the review process. CMS officials informed us that they reconciled the
Forms CMS-64 and CMS-21 to the accounting records that DHCS used to support the Forms
CMS-64 and CMS-21. However, the accounting records that DHCS used to support the Forms
CMS-64 and CMS-21 did not include the detailed claim information. DHCS officials informed
us that the detailed claim information was not readily available.

California State Audit Reports

The California State Auditor found that DHCS’s Form CMS-64 was not traceable to individual
claims and recommended that DHCS implement an audit trail so that funding sources for
individual claims can be identified. The California State Auditor reported this finding in
consecutive years. DHCS agreed with the finding and stated that the system was to be
redesigned by January 2009 with the capability to trace summary reports to individual claims.

RECOMMENDATIONS

We recommend that CMS:

    instruct DHCS to reconcile its PERM universes to the Forms CMS-64 and CMS-21 it
     submits to CMS and ensure that its universes are complete and accurate,

    instruct DHCS to implement a payment system that produces information that is readily
     available, and

    include steps in the California Financial Management Review to annually reconcile
     various expenditures on the Forms CMS-64 and CMS-21 to detailed claim information.




                                                7
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

CMS did not agree to implement our first two recommendations. CMS did not specifically
address our third recommendation. CMS’s comments are summarized below and included in
their entirety as the Appendix.

Reconciling Payment Error Rate Measurement Universes to
Forms CMS-64 and CMS-21

Centers for Medicare & Medicaid Services Comments

CMS explained that “obtaining the final expenditure data in time to complete all reviews and
calculations before the November 15 error rate reporting due date is problematic.” Instead of
reconciling the current quarter, CMS is requiring States to compare their quarterly PERM
universes to Forms CMS-64 and CMS-21 from the two previous quarters to ensure that all
required programs from all necessary data sources are included in the PERM universes. Then, as
part of its data quality control process, the statistical contractor reconciles each State’s quarterly
universe to that quarter’s Forms CMS-64 and CMS-21 and, for each quarter, follows up with the
States to account for variances over 15 percent. After universe submissions are complete, the
statistical contractor follows up with the CMS Regional Offices and the States to account for
variances between PERM universes and Forms CMS-64 and CMS-21 of more than 5 percent.

Office of Inspector General Response

CMS did not specifically address our recommendation as it relates to DHCS. While CMS has
implemented a reconciliation process with the statistical contractor, reconciling within 5 percent
is not sufficient to meet the statistical requirements of OMB Circular A-123, Appendix C.
Without reconciling the PERM universes to the Forms CMS-64 and CMS-21, CMS is unable to
show that it has complied with the requirements of OMB Circular A-123, Appendix C, for “a
statistically valid estimate of the annual amount of improper payments . . . .”

The results obtained from statistical sampling of the PERM universe are applicable only to the
universe from which the sample was drawn. Therefore, if the PERM universe differs from the
States’ actual Medicaid and SCHIP claims included on the Forms CMS-64 and CMS-21, States
are determining the error rate in the PERM universe, not necessarily the error rate in the
Medicaid and SCHIP programs.

Implementing a Payment System That Produces Readily Available Information

Centers for Medicare & Medicaid Services Comments

CMS agreed in principle that all States should produce audit trails and other payment
information that is timely and accurate. Historically, California has had no automated link
between its accounting system and its claims-processing system. CMS stated that DHCS has
submitted a Systems Development Notice to redesign the system to provide an automated link.



                                                  8
However, implementing the change is “subject to the availability of State budget resources … to
support the change.”

Office of Inspector General Response

We recognize that State budgetary resources are at a premium. However, it is essential to the
integrity of the Medicaid and SCHIP programs that the Forms CMS-64 and CMS-21 be readily
traceable to detailed claims information.

Reconciling Expenditures on the Forms CMS-64 and CMS-21 Periodically

Centers for Medicare & Medicaid Services Comments

CMS did not specifically address our recommendation to include steps in the Financial
Management Review to annually reconcile various expenditures on the Forms CMS-64 and
CMS-21 to detailed claim information. However, CMS agreed that Federal claims should be
periodically reconciled to claims information.

Office of Inspector General Response

The reconciliation of Forms CMS-64 and CMS-21 to detailed claim information must be part of
the Financial Management Review to help ensure California is submitting valid claims.




                                               9
APPENDIX
                                                                                                           Page 1 of3


APPENDIX: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS



       DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Cenlers lor Medica", & Medicakl SeMces


                                                                                Admi"i$tTato~
                                                                                Washington, DC 20201




    DATE:

    TO:           . Daniel R. Levinson
                    Inspector General

    FROM:       ~~zzJa-r-
                   Acting Administrator

    SUBJECT: 	 Office of Inspector General (010) Draft Report: " Review of Cali fomi a's
               Depanment of Health Care Services Fiscal Year 2007 Payment Error Rate
               Measurement Universes" (A-06-08-00050)


    Than k you for the opportunity to comment on thc OIG draft report entitled, "Review of
    Cal ifornia's Department of Health Care Services Fiscal Year 2007 Payment Error Rale
    Measurement Universes." We appreciate the DIG' s review of Cali fomi a's reconciliation
    processes. We have reviewed the report and have responded to your recommendations.

    DIG Recommendation

    Instruct the Depanmenl of Ikalth Care Services (OJ-leS) to reconcile its Payment Error Rate
    Measurement (PERM) universes \0 the Fonns CMS-64 and CMS-2 1 it submits to CMS and
    ensure that its universes are complete and accurate.

    CMS Response

    The Centers for Medicare & Medicaid Services (CMS) implemented a reconciliation process
    beginning with the Medicaid and Children's Health Insurance Program (CHIP) universe
    subm issions for the fiscal year (FY) 2008 PERM cyc le. The States subm itted universes and
    CMS ' statistical contractor validated the universes for complcteness and accuracy through
    comparison with Financial Management Reports. The statistical contractor followed up with the
    CMS Regional Offices and the States \0 account for any variances between PERM universes and
    Financial Reports over 5 percent.

    Beginning with the FY 2009 PERM cycle, CMS is requiring States, including California. to
    compare thei r PERM universes to the two previous ql,larters' Forms CMS-64 and CMS· 2 1. The
    purpose of this comparison is for States to ensure they are submitting all required programs from
    all necessary data sources in the ir PERM universes. Then, as part of its data quality control
    process, the statistical contractor reconciles each quarter ly universe to that quarte r's Fonns
    C MS-64 and CMS.2 1 For each quarter, the SIMiSlical conlractor follows up wilh Slales 10
                                                                                                     Page 20f3




Page 2 - Daniel R. Levinson


account for variances over IS percent. After universe submissions are complete, the stat istical
contractor follows up with the CMS Regional Offices and the States to accoun t for variances
between PERM universes and fOmls CMS-64 and CMS-21 over 5 percent.                   .

As we have discussed, obtaining the final expenditure data in lime to complete all reviews and
calculations before the November 15 error rate reporting due date is problematic. We wil l of
course continue to work with the DIG to refine the estimation and reconciliation process that will
result in a more accurate calculation.

G IG Recommendation

Instruct DHCS to implement a payment system that produces information that is readi ly
available.

CMS Response

We agree that all States should produce audit trails and other payment information that is both
timely and accurate. With regard to Cal ifornia, there has been no histo rical automated link
between the California State Accounting and Reporting System and the State's Medicaid
Management Information System (MMIS) claims processing system .. Instead, whenever
reconciliation to individual claims is required, the State has to run ad-hoc reports oUI of its
MMIS system to determine the i,ndividual claims that were combined to arrive at a particular
expenditure report summary. While audit trails exist, they are slow and cumbersome to
reproduce.                         I '

The State Agency has informed eMS ; tafrtha t a Syst~~s Development Notice has been
submitted to redesign the system to provide an au tomated capability to trace summary reports to
claims-level data. The change wi ll'be designed and implemented by the State's MMIS
contractor but that change is subject to the availabi lity of State budget resources being made
available to support the change.

DIG Recommendation

Include steps in the Cal ifornia Financial Managernent Review to annually reconcile various
expenditures on the Forms CMS·64 and CMS-21 to d~tai l ed claim information,

CMS Res ponse

We agree it is imperative that Fed~ral ciai~s be periodically reconci led to claims information.

The CMS utilizes National Review Guides to conduct desk reviews and on-site reviews ofCMS­
64 and CMS-2l quanerly expenditure reports. Integral to those,reviews are steps to reconci le
Federal claims back to Stale acco~nting and other supporting re~ords. Relative risk of specific
line items is assessed in part through variance analysis and other analytical techniques.
Investigation ofaberTant claim a[l10un ts can result in dri lli~~ ~o~ to claims-level data as
needed.
                                                                                               Page 3 of3

                                       , '

Page J - Daniel R. Levinson


Additionally. the eMS Regional Offices conduct focused financial management reviews each
yea r on targeted program areas in most States. When provider claims are reviewed, the scope
and coverage gene rally involves reconcil ing to and sampling individual provider claims.
